          EVALUATION REPORT


                Inspector General’s Assessment of the
              Most Serious Management and Performance
                        Challenges Facing NRC

                    OIG-08-A-20 September 30, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
    Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



EXECUTIVE SUMMARY

   BACKGROUND

          The Reports Consolidation Act of 2000 requires the Inspector
          General (IG) of each Federal agency to summarize annually what
          he or she considers to be the most serious management and
          performance challenges facing the agency and to assess the
          agency’s progress in addressing those challenges.

   PURPOSE

          In accordance with the act, the IG at the Nuclear Regulatory
          Commission (NRC) updated what he considers to be the most
          serious management and performance challenges facing NRC.
          The IG evaluated the overall work of the Office of the Inspector
          General (OIG), the OIG staff’s general knowledge of agency
          operations, and other relevant information to develop and update
          his list of management and performance challenges. As part of the
          evaluation, OIG staff sought input from NRC’s Chairman,
          Commissioners, and management to obtain their views on what
          challenges the agency is facing and what efforts the agency has
          taken to address previously identified management and
          performance challenges.

   RESULTS IN BRIEF

          The IG identified eight challenges that he considers the most serious
          management and performance challenges facing NRC. The challenges
          identified represent critical areas or difficult tasks that warrant high-level
          NRC management attention.

          This year’s list of challenges reflects several changes from last year’s
          list.

               •    Prior challenge 2, Appropriate handling of information, was
                    combined with prior challenge 7, Communication with external
                    stakeholders throughout NRC regulatory activities. The
                    consolidation of these challenges resulted in the following
                    description for new challenge 2: Managing information to balance
                    security with openness and accountability, which captures the
                    need for both openness and protection of information.

               •    Prior challenge 3, Development and implementation of a risk-
                    informed and performance-based regulatory approach, was
                    revised to the current challenge 3 language: Implementation of a


                                               i
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                risk-informed and performance-based regulatory approach. This
                change reflects the relative maturity of NRC’s risk-informed and
                performance-based regulatory programs and their advancement
                beyond developmental efforts to implementation activities.

           •    Prior challenge 4, Ability to modify regulatory processes to meet a
                changing environment, specifically the potential for a nuclear
                renaissance, was reworded to more precisely focus on licensing
                issues. Current challenge 4 now states, Ability to modify
                regulatory processes to meet a changing environment, to include
                the licensing of new nuclear facilities. Waste issues, formerly
                covered in challenge 4, are reflected in a new challenge 5,
                Oversight of radiological waste.

           •    Prior challenge 5, Implementation of information technology, was
                reworded to current challenge 6, Implementation of information
                technology and information security measures, to emphasize the
                need to ensure that information technology resources use
                technological solutions for information security when appropriate.

      The chart that follows provides an overview of the eight most
      serious management and performance challenges as of
      September 30, 2008.




                                           ii
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




         Most Serious Management and Performance Challenges
              Facing the Nuclear Regulatory Commission*
                        as of September 30, 2008
                 (as identified by the Inspector General)

Challenge 1        Protection of nuclear material used for civilian purposes.

Challenge 2        Managing information to balance security with openness and
                   accountability.

Challenge 3        Implementation of a risk-informed and performance-based
                   regulatory approach.

Challenge 4        Ability to modify regulatory processes to meet a changing
                   environment, to include the licensing of new nuclear facilities.

Challenge 5        Oversight of radiological waste.

Challenge 6        Implementation of information technology and information
                   security measures.

Challenge 7        Administration of all aspects of financial management.

Challenge 8        Managing human capital.


*The most serious management and performance challenges are not
ranked in any order of importance.



     CONCLUSION

              The eight challenges contained in this report are distinct, yet
              interdependent relative to the accomplishment of NRC’s mission.
              For example, the challenge of managing human capital affects all
              other management and performance challenges.

              The agency’s continued progress in taking actions to address the
              challenges presented should facilitate successfully achieving the
              agency’s mission and goals.




                                                 iii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          iv
    Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



ABBREVIATIONS AND ACRONYMS

          CFR                Code of Federal Regulations

          COL                Combined Operating License

          CUI                controlled unclassified information

          DOE                Department of Energy

          FY                 Fiscal Year

          IG                 Inspector General

          IT                 information technology

          MC&A               material control and accounting

          NMSS               Office of Nuclear Material Safety and Safeguards

          NMMSS              Nuclear Materials Management and Safeguards
                             System

          NRC                U.S. Nuclear Regulatory Commission

          NSTS               National Source Tracking System

          OIG                Office of the Inspector General

          T&L                Time and Labor




                                               v
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          vi
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



TABLE OF CONTENTS

    EXECUTIVE SUMMARY.........................................................................i

    ABBREVIATIONS AND ACRONYMS ....................................................v

    I.       BACKGROUND .............................................................................1

    II.      PURPOSE......................................................................................1

    III.     EVALUATION RESULTS ...............................................................1

    Challenge 1            Protection of nuclear material used for civilian
                           purposes ........................................................................5

    Challenge 2            Managing information to balance security with
                           openness and accountability..........................................7

    Challenge 3            Implementation of a risk-informed and
                           performance-based regulatory approach .......................9

    Challenge 4            Ability to modify regulatory processes to meet a
                           changing environment, to include the licensing
                           of new nuclear facilities ................................................11

    Challenge 5            Oversight of radiological waste ....................................15

    Challenge 6            Implementation of information technology and
                           information security measures .....................................17

    Challenge 7            Administration of all aspects of financial
                           management ................................................................19

    Challenge 8            Managing human capital ..............................................21

    IV. CONCLUSION................................................................................23


    APPENDIX

           SCOPE AND METHODOLOGY .....................................................25




                                                    vii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          viii
        Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



I.     BACKGROUND

              On January 24, 2000, Congress enacted the Reports Consolidation
              Act of 2000, requiring Federal agencies to provide financial and
              performance management information in a more meaningful and
              useful format for Congress, the President, and the public. The act
              requires the Inspector General (IG) of each Federal agency to
              summarize annually what he or she considers to be the most
              serious management and performance challenges facing the
              agency and to assess the agency’s progress in addressing those
              challenges.


II.    PURPOSE

              In accordance with the act’s provisions, the Nuclear Regulatory
              Commission (NRC) IG updated what he considers to be the most
              serious management and performance challenges facing the
              agency. The IG evaluated the overall work of the Office of the
              Inspector General (OIG), the OIG staff’s general knowledge of
              agency operations, and other relevant information to develop and
              update his list of management and performance challenges.

              In addition, OIG sought input from NRC’s Chairman, Commis-
              sioners, and management to obtain their views on what challenges
              the agency is facing and what efforts the agency has taken or
              planned to address previously identified management and
              performance challenges.


III.   EVALUATION RESULTS

              The NRC’s mission is to regulate the Nation’s civilian use of
              byproduct, source, and special nuclear materials to ensure
              adequate protection of public health and safety, promote the
              common defense and security, and protect the environment. Like
              other Federal agencies, NRC faces management and performance
              challenges in carrying out its mission.

              Determination of Management and Performance Challenges

              Congress left the determination and threshold of what constitutes a
              most serious management and performance challenge to the
              discretion of the Inspectors General. As a result, the IG applied the
              following definition in identifying challenges:

                                                  1
        Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



Serious management and performance challenges are mission critical areas or
programs that have the potential for a perennial weakness or vulnerability that,
without substantial management attention, would seriously impact agency
operations or strategic goals.

              Based on this definition, the IG revised his list of the most serious
              management and performance challenges facing NRC. The
              challenges identified represent critical areas or difficult tasks that
              warrant high-level NRC management attention. The following chart
              provides an overview of the eight management challenges. The
              sections that follow provide more detailed descriptions of the
              challenges, descriptive examples related to the challenges, and
              examples of efforts that the agency has taken or are underway to
              address the challenges.



          Most Serious Management and Performance Challenges
               Facing the Nuclear Regulatory Commission*
                         as of September 30, 2008
                  (as identified by the Inspector General)

Challenge 1         Protection of nuclear material used for civilian purposes.

Challenge 2         Managing information to balance security with openness and
                    accountability.

Challenge 3         Implementation of a risk-informed and performance-based
                    regulatory approach.

Challenge 4         Ability to modify regulatory processes to meet a changing
                    environment, to include the licensing of new nuclear facilities.

Challenge 5         Oversight of radiological waste.

Challenge 6         Implementation of information technology and information
                    security measures.

Challenge 7         Administration of all aspects of financial management.

Challenge 8         Managing human capital.


*The most serious management and performance challenges are not
ranked in any order of importance.



                                                  2
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


Changes to Management Challenges

               This year’s list of challenges reflects several changes from last year’s
               list.

               Consolidation of Two Challenges

               Prior challenges 2 and 7 were combined to form challenge 2: Managing
               information to balance security with openness and accountability, which
               captures the need for both openness and protection of information.1

               New Wording for Three Challenges

               Prior challenge 3 was revised to the current challenge 3 language:
               Implementation of a risk-informed and performance-based regulatory
               approach.2 This change reflects the relative maturity of NRC’s risk-
               informed and performance-based regulatory programs and their
               advancement beyond developmental efforts to implementation activities.

               Prior challenge 4 was reworded to more precisely focus on licensing
               issues.3 New challenge 4 states, Ability to modify regulatory processes
               to meet a changing environment, to include the licensing of new nuclear
               facilities.

               Prior challenge 5 was reworded to current challenge 6, Implementation
               of information technology and information security measures, to include
               emphasis on ensuring that information technology (IT) resources use
               technological solutions for information security when appropriate.4

               New Challenge

               Waste issues, formerly covered in the writeup corresponding to
               challenge 4, are reflected in a new challenge 5, Oversight of radiological
               waste. Managing current and future waste is a major issue for the
               nuclear industry and the Nation, and NRC must be prepared to support
               safe, sound, and long-lasting solutions for high and low level nuclear
               waste.




1
  2007 challenge 2: Appropriate handling of information; 2007 challenge 7: Communication with
external stakeholders throughout NRC regulatory activities.
2
  2007 challenge 3: Development and implementation of a risk-informed and performance-based
regulatory approach.
3
  2007 challenge 4: Ability to modify regulatory processes to meet a changing environment,
specifically the potential for a nuclear renaissance.
4
  2007 challenge 5: Implementation of information technology.
                                                   3
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                           [Page intentionally left blank.]




                                          4
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 1
Protection of nuclear material used for civilian purposes.

             NRC is authorized to grant licenses for the possession and use of
             radioactive materials and establishes regulations to govern the
             possession and use of those materials. NRC’s regulations require
             that certain material licensees have extensive material control and
             accounting (MC&A) programs as a condition of their licenses. All
             other license applications (including those requesting authorization
             to possess small quantities of special nuclear materials) must
             develop and implement plans that demonstrate a commitment to
             accurately control and account for radioactive materials.

             The issues facing NRC and the agency’s actions to address each
             issue include the following:

             Issue: Ensure that radioactive material is adequately protected to
             preclude its use for malicious purposes.

                       Action: NRC is enhancing its material licensing processes,
                       including a new policy for onsite visits for issuing new
                       material licenses, examinations of existing licenses to
                       determine their legitimacy, and the formation of a working
                       group to update and revise existing material licensing
                       guidance.

             Issue: Ensure adequate inspections to verify licensees’
             commitments to their material control and accounting programs.

                       Action: NRC is enhancing its inspection program.
                       Currently, fuel cycle MC&A inspections are a shared
                       responsibility between the Office of Nuclear Material Safety
                       and Safeguards (NMSS) and Region II, with two MC&A
                       inspectors in each location. Additionally, the Commission
                       approved a staff proposed rulemaking effort to include
                       enhancements to MC&A inspection frequency and on April
                       25, 2008, the staff provided its rulemaking plan to the
                       Commission. The rulemaking is ongoing under the
                       sponsorship of NMSS and the Office of Federal and State
                       Materials and Environmental Management Programs.




                                                 5
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


      Issue: Ensure reliable accounting of special nuclear materials in
      the NRC and Department of Energy’s (DOE) jointly managed
      Nuclear Materials Management and Safeguards System (NMMSS).

                Action: NRC has been working since 2003 to resolve
                issues of material control and accounting in response to
                OIG-03-A-15, Audit of NRC’s Regulatory Oversight of
                Special Nuclear Materials. To improve the accuracy of
                material inventory information maintained in NMMSS, NRC
                approved the final rule on February 7, 2008, amending the
                Code of Federal Regulations (CFR) Title 10, Parts 40, 72,
                74, and 150. This added requirements to track smaller
                quantities of special nuclear material. However, the
                Commission approved a DOE request to delay
                implementation by 1 year.

      Issue: Implement the National Source Tracking System (NSTS) to
      ensure the accurate tracking of byproduct material, especially those
      materials with the greatest potential to impact public health and
      safety.

                Action: NRC expects to have NSTS on line by
                December 31, 2008, initially populating the system with data
                submitted into an interim database by licensees during 2008.
                In addition, NRC has initiated several rulemakings to expand
                the materials tracked in NSTS.

      Issue: Ensure that Agreement State programs are adequate to
      protect public health and safety and the environment, and are
      compatible with NRC’s program.

                Action: NRC continues to conduct about 10 to 12 reviews
                per year of Agreement State radioactive materials programs
                under NRC’s Integrated Materials Performance Evaluation
                Program.




                                          6
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 2
Managing information to balance security with openness and
accountability.

             NRC employees create and work with a significant amount of
             sensitive information that needs to be protected. Such information
             includes sensitive unclassified information and classified national
             security information contained in written documents and various
             electronic databases.

             In addressing continuing terrorist activity worldwide, NRC
             continually reexamines its information management policies and
             procedures. NRC faces the challenge of attempting to balance the
             need to protect sensitive information from inappropriate disclosure
             with the agency’s goal of openness in its regulatory processes.
             Over the past year, NRC has made various efforts to improve
             public access to information while protecting sensitive information,
             including security-related information, from inappropriate
             disclosure.

             The issues facing NRC and the agency’s actions to address each
             issue include the following:

             Issue: Manage information in accordance with new Federal
             Government policies for designating, marking, safeguarding, and
             disseminating controlled unclassified information (CUI).

                       Action: NRC will implement new CUI policies and
                       procedures over a 5-year period once guidance has been
                       issued by the National Archives and Records Administration.
                       Safeguards Information is exempt from the new regulations;
                       therefore, NRC will continue to manage Safeguards
                       Information according to current policies.

             Issue: Ensure that sensitive information is handled in accordance
             with agency policies and procedures for public disclosure.

                       Action: NRC responded to congressional and public
                       concern regarding an incident at a Nuclear Fuel Services,
                       Inc., facility by reviewing and releasing a number of pertinent
                       agency documents that had not been made publicly
                       available. In addition, the NRC resumed public meetings on
                       the facility’s performance during the fall of 2007.

                       Action: NRC issued multiple announcements related to the
                       appropriate handling of information. It also completed
                       reviews of shared network drives and office files to ensure
                                                 7
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                that personally identifiable information and Privacy Act
                information was adequately protected or removed if
                unnecessary.

      Issue: Provide external stakeholders with clear and accurate
      information about regulatory programs, and facilitate public
      participation in the regulatory process.

                Action: The staff conducted monthly public working-level
                meetings with industry and public stakeholders to discuss
                ongoing changes to the Reactor Oversight Process. The
                staff also conducted public meetings near each operating
                reactor to discuss results of the NRC’s annual assessment
                of the licensee’s performance. Further, staff held an annual
                public meeting in November 2007 to present information on
                the overall security performance of the commercial reactor
                industry, and to respond to questions and solicit comments
                on nuclear security issues. Lastly, in November 2007, staff
                issued a revised communications plan for engaging Federal,
                Tribal, State, and local government stakeholders.




                                          8
        Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 3
Implementation of a risk-informed and performance-based regulatory
approach.

              NRC’s intent is to increase its safety focus on licensing and
              oversight activities through the application of a balanced
              combination of experience, deterministic models, and probabilistic
              analysis. This approach is known as risk-informed and
              performance-based regulation. Incorporating risk analysis into
              regulatory decisions is intended to improve the regulatory process
              by focusing both NRC and licensee attention and activities on the
              areas of highest risk.

              The issues facing NRC and the agency’s actions to address each
              issue include the following:

              Issue: Ensure that the appropriate level of focus on risk-informed
              and performance-based regulation is maintained.

                        Action: NRC continues its work to improve the agency's
                        Risk-Informed Performance-Based Plan, including a recent
                        expansion of the plan's objectives to more fully achieve a
                        holistic, risk-informed, and performance-based regulatory
                        structure.

              Issue: Develop and implement risk-informed and performance-
              based regulation for fuel cycle facilities.

                        Action: The agency conducted risk analyses during an
                        application review for a proposed gas centrifuge facility and
                        continued implementation of an enhanced fuel cycle facility
                        oversight process.

              Issue: Ensure that the Reactor Oversight Process meets the
              agency’s regulatory needs.

                        Action: NRC uses results of an annual self-assessment of
                        the Reactor Oversight Process to better identify significant
                        performance issues and to ensure that licensees take
                        appropriate actions to maintain acceptable safety
                        performance.

              Issue: Ensure that research programs enhance the validity of
              current risk models, and also develop risk insights for new
              technologies, including program areas transitioning to risk-informed
              regulation.

                                                  9
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                Action: NRC continues to make progress in developing risk
                assessments. For example, NRC completed a review of the
                fire probabilistic risk assessment for two nuclear power
                plants. The agency also continues to develop tools that
                allow staff to make complex and probabilistic risk-
                assessment calculations on their desktop computers.




                                          10
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 4
Ability to modify regulatory processes to meet a changing environment, to
include the licensing of new nuclear facilities.

             NRC faces the challenge of maintaining its core regulatory
             programs while adapting to changes in its regulatory environment.
             NRC must address a growing interest in licensing and constructing
             new nuclear power plants to meet the Nation’s demand for energy
             production. By August 2008, NRC had received 12 Combined
             Operating License (COL) applications (Calvert Cliffs, South Texas
             Project, Bellefonte, North Anna, Lee, Shearon Harris, Grand Gulf,
             Vogtle, V.C. Summer, Comanche Peak, Levy County, and Victoria
             County). NRC expects to receive additional COL applications.

             While responding to the emerging demands associated with
             licensing and regulating new reactors, NRC must maintain focus
             and effectively carry out its current regulatory responsibilities, such
             as inspections of the current fleet of operating nuclear reactors and
             fuel cycle facilities.

             The challenges facing NRC and the agency’s actions to address
             each challenge include the following:

             New Facilities

             Issue:

             Instituting a Construction Inspection Program.

             •         Developing strong control processes for project
                       management to ensure the agency meets its new reactor
                       review and licensing objectives.

             •         Developing technical review processes.

             •         Ensuring a comprehensive standard review plan and
                       adequately documented safety evaluation reports.

                       Action: NRC is taking a design-centered review approach
                       to optimize the COL application review process. The Office
                       of New Reactors is in the process of developing a new
                       construction inspection program in accordance with 10 CFR
                       52. The new program of "inspections, tests, analyses, and
                       acceptance criteria" has been integrated into the Part 52
                       licensing process to create a design-specific, pre-approved


                                                 11
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                set of performance standards. Licensees must meet these
                standards and the Commission must find that the standards
                have been met before the licensee can load fuel and operate
                the plant.

      Issue: Ensure that the process for reviewing applications for new
      facilities meets the public’s demand for new energy sources while
      focusing on safety and effectiveness.

                Action: NRC’s preparations have been focused on issuing
                reactor design certifications, revising the regulation that
                governs early site permits, and engaging in ongoing
                interactions with nuclear plant designers and utilities
                regarding prospective new reactor applications and licensing
                activities.

      Existing Fleet

      Issue: Ensure the ability to review licensee applications for license
      renewals and power uprates submitted by industry in response to
      the Nation’s demand for energy production.

                Action: NRC continues to work with plant licensees to
                develop a schedule of anticipated license amendment
                requests for license renewals and power uprates. The
                agency has implemented a number of recommendations to
                improve the license renewal review process, to include
                closer management oversight of the renewal process, as
                well as provide additional guidance to standardize the
                content of NRC’s license renewal review reports.

      Issue: Respond to a heightened public focus on license renewals
      resulting in contested hearings.

                Action: NRC has open dialogs with the industry, licensees,
                and stakeholders, and appropriate comments have been
                incorporated into new inspection procedures. NRC staff
                explained details of the new procedures during breakout
                sessions at the agency’s 2008 Regulatory Information
                Conference.

      Issue: Ensure the ability to identify emerging operating and safety
      issues at all plants, including issues associated with extended and
      uprated licenses; consistently apply regulatory and review changes
      in response to these emerging issues across the existing fleet of
      reactors.


                                          12
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                Action: Annually, agency staff communicate the status of
                the power uprate program to the Commission. The staff is
                currently revising Inspection Procedure 71004 to provide
                additional guidance on inspection planning, implementation,
                and documentation.

      Issue: Establish and maintain effective, stable, and predictable
      regulatory programs or policies for all programs.

                Action: NRC continues to interface with stakeholders,
                develop regulatory policy, update rules and technical
                guidance, provide technical lead and management for the
                Reactor Oversight Process, and support the development of
                programmatic changes when needed.




                                          13
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          14
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 5
Oversight of radiological waste.

             High-level radioactive waste is primarily in the form of spent nuclear
             fuel generated from commercial nuclear power reactors. NRC
             faces significant issues involving the potential licensing of the
             proposed Yucca Mountain repository for storing high-level
             radioactive waste. Additional challenges in the high-level waste
             area include the interim storage of spent nuclear fuel, certification
             of storage and transportation casks, and the oversight of
             decommissioned reactors and other nuclear sites.

             Additionally, the amount of low-level waste continues to grow;
             however, no new disposal facilities have been built since the 1980s
             and unresolved issues will grow as the once-operational disposal
             facilities shut down.

             The challenges facing NRC and the agency’s actions to address
             each challenge include the following:

             Issue: Address increasing quantities of radiological waste
             requiring interim or permanent disposal sites.

                       Action: NRC developed and implemented a risk-informed
                       decisionmaking framework in connection with a wide range
                       of nuclear waste storage issues. The NRC has conducted
                       reviews using the framework for dry cask waste storage
                       systems and concluded that such systems provide a safe
                       means to store spent nuclear fuel with exceedingly low risk.

             Issue: Address issues regarding the license application to
             construct a high-level radioactive waste repository at Yucca
             Mountain.

                       Action: The NRC received the Yucca Mountain license
                       application from DOE in June 2008. Consistent with
                       direction in the Nuclear Waste Policy Act and the Energy
                       Policy Act, the agency has been conducting high-level waste
                       pre-licensing activities to ensure appropriate standards and
                       regulatory guidance are in place. Additionally, NRC is
                       interacting with the applicant, the DOE, such that the
                       licensing review for a potential Yucca Mountain high-level
                       waste repository can be conducted in 3 to 4 years as
                       directed by Congress. NRC is also preparing to publish a
                       final revision to 10 CFR Part 63 to align agency regulations
                       to new Environmental Protection Agency standards for
                       radiation protection at a high-level waste repository.
                                                 15
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


      Issue: Oversight of low-level waste disposal, including low-level
      radioactive waste disposal sites.

                Action: NRC has informed fuel cycle and materials
                licensees about the potential need to store some low-level
                radioactive waste onsite for an extended period after the
                low-level waste disposal facility in Barnwell, South Carolina,
                closed. NRC-updated guidance advises licensees to
                consider ways to minimize production of Class B and C low-
                level waste.

      Issue: Oversight of nuclear waste issues associated with the
      decommissioning and cleanup of nuclear reactor sites and other
      facilities.

                Action: NRC continues to hold public meetings with
                stakeholders and licensees to explore safe and secure
                storage options associated with decommissioning of plants,
                such as transitioning from spent pool storage to dry cask
                storage.




                                          16
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 6
Implementation of information technology and information security
measures.

            NRC needs to continue upgrading and modernizing its IT
            capabilities both for employees and for public access to the
            regulatory process. Recognizing the need to modernize, the Office
            of Information Services established goals to improve the
            productivity, efficiency, and effectiveness of agency programs and
            operations, and enhance the use of information for all users inside
            and outside the agency. NRC also needs to ensure that system
            security controls are in place to protect the agency’s information
            systems against misuse.

            The issues related to this challenge and the agency’s actions to
            address each issue include the following:

            Issue: Upgrade and manage IT activities to improve the
            productivity, efficiency, and effectiveness of agency programs and
            operations.

                      Action: NRC recognizes that it continues to lag behind
                      many other Federal agencies in terms of its IT infrastructure.
                      For example, it recently upgraded software applications to
                      include Microsoft Office Suite and Microsoft Outlook – both
                      commonly used in the private and public sectors. In
                      addition, the agency has begun to address longstanding
                      telephone problems by upgrading the telephone system
                      performance both with new enhanced features and service
                      as well as bandwidth capabilities.

            Issue: Implement a program to provide program office laptop
            computers with enhanced functionality, security, and support.

                      Action: The agency has set goals concerning laptops for
                      the Office of Information Services to implement in the next
                      several years. The agency has identified and is addressing
                      its needs to (1) develop policies and standards for the use of
                      laptop computers, (2) implement enterprise encryption and
                      updating of operating systems to support the laptop
                      program, and (3) provide secure wireless capability access.
                      The use of laptop computers is expected to increase in the
                      coming years.

            Issue: Ensure that information systems are protected.


                                                17
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                Action: The NRC Computer Security Office was formed to
                provide an increased capability to oversee the integration of
                security controls into all IT projects and operations and to
                improve the security of automated information. The position
                of Chief Information Security Officer was established as the
                head of this office.

                Action: NRC has made progress in correcting the two
                significant deficiencies identified in the 2007 evaluation of
                the Federal Information Security Management Act
                concerning its information systemwide security controls. As
                of August 2008, more than half of the agency’s systems
                were certified and accredited; however, the agency needs to
                certify and accredit all of its systems. The agency is working
                towards this goal and expects to complete all certifications
                and accreditations by the end of FY 2009.

                Action: NRC is awarding a contract in excess of $2 million
                to advance the organization’s strengthening of security
                controls that protect NRC’s information systems and
                information using a certification and accreditation process.
                By implementing this contract, NRC hopes to ensure that
                security controls for information systems are adequate, and
                that unauthorized access, use, disclosure, disruption,
                modification, or destruction of NRC’s information systems or
                data can be detected and prevented.




                                          18
          Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




    CHALLENGE 7
    Administration of all aspects of financial management.

                NRC management is responsible for establishing and maintaining
                effective internal controls and financial management systems that
                meet the objectives of several statutes including the Federal
                Managers’ Financial Integrity Act. This act mandates that NRC
                reasonably ensure that (1) obligations and costs comply with
                applicable law; (2) assets are safeguarded against waste, loss,
                unauthorized use, or misappropriation; and (3) revenues and
                expenditures are properly recorded and accounted for. This act
                encompasses programmatic and administrative areas, as well as
                accounting and financial management.

                The issues related to this challenge and the agency’s actions to
                address each issue include the following:

                Issue: Replace or upgrade the agency’s current financial systems,
                which are obsolete, overly complex, and inefficient.

                          Action: In June 2008, the Chairman approved the Financial
                          Accounting and Integrated Management Information System
                          Implementation project. The new system, which will replace
                          five aging financial systems5 with a single integrated core
                          financial system, is expected to be operational in October
                          2010.

                          Action: NRC completed the eTravel pilot. eTravel is a
                          Governmentwide initiative to improve internal efficiency. The
                          paperless system will automate travel documentation and
                          approval routing of most travel arrangements. The lessons
                          learned from the pilot are currently under review and may
                          result in a delay of full implementation from the planned date
                          of December 2008.

                          Action: NRC plans to implement the upgrade to the Time
                          and Labor (T&L) System during the second half of FY 2009.
                          The upgrade will provide a modern, Web-enabled version of
                          the existing PeopleSoft T&L software. The system will
                          include electronic approval of time, as well as other forms
                          associated with leave and overtime/compensatory time.


5
 The five financial systems are Federal Financial System, Fee Billing System,
Allotment/Allowance Financial Plan System, Cost Accounting System, and the Capitalized
Property System.

                                                    19
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                Action: In response to a business process improvement
                study that focused on time and labor and fee billing
                processes, the agency developed guidance for managing
                reporting codes. Initially, the number of reporting codes was
                reduced to fewer than 10,000; however, since January 2008,
                the number of codes has grown to approximately 20,000.
                The agency has issued further guidance and instituted a
                periodic review process to ensure that the new policy is
                consistently observed.

      Issue: Ensure that the agency continues its efforts to monitor the
      effectiveness of existing controls over the fee billing process and
      implement additional controls to address weaknesses identified.

                Action: NRC improved its internal control over fee billing by
                implementing additional detection controls. As a result, the
                agency’s independent auditors downgraded the material
                weakness related to NRC’s legacy Fee Billing System to a
                significant deficiency. The agency continues to conduct
                reviews to ensure that detection controls are working as
                intended and to seek ways to improve the fee billing
                certification process. These reviews have identified areas
                needing improvement.

      In addition to the issues noted above, the agency has taken several
      steps to meet the challenge of administering all aspects of financial
      management. Those steps include implementing cross-servicing
      agreements for travel and contract support payment with an outside
      provider, evaluating the expansion of the cross-servicing effort to
      other NRC financial activities, and engaging in a thorough review of
      unliquidated funds, which resulted in funds being made available to
      fund high priority activities.




                                          20
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 8
Managing human capital.

            NRC’s human capital needs are changing due to the receipt of (1)
            applications to construct and operate the next generation of nuclear
            reactors, (2) DOE’s license application to construct a nuclear waste
            repository, and (3) industry applications to increase the number of
            fuel cycle facilities. To effectively manage human capital as these
            changes progress, while continuing to accomplish the agency's
            mission, NRC must rigorously implement the following initiatives:

                   •    Timely personnel security adjudication.
                   •    Space planning.
                   •    Recruitment and knowledge management.

            The issues related to this challenge and the agency’s actions to
            address each issue include the following:

            Issue: Achieve timely personnel security adjudication. Work start
            dates for NRC employees, contractors, and licensees are
            frequently delayed due to the time-consuming personnel security
            adjudication process currently in place for granting access
            authorization.

                       Action: The agency is reviewing its hiring process for
                       external applicants, which includes the entire hiring
                       and security process that occurs from identification of
                       an active vacancy through the entrance-on-duty date,
                       and will develop recommendations to expedite the
                       process.

                       Action: In accordance with Executive Order 13467
                       dated June 30, 2008, Reforming Processes Related to
                       Suitability for Government Employment, Fitness for
                       Contractor Employees, and Eligibility for Access to
                       Classified National Security Information, NRC must
                       develop reciprocity processes and procedures to
                       accept applicable investigations and adjudications
                       conducted by other Federal agencies.

                       Action: In November 2007, the Office of
                       Administration hired two additional Personnel
                       Security Specialists for the adjudication of
                       personnel security cases. Three additional
                       Personnel Security Specialists were brought on
                       board during the summer of 2008.

                                                21
            Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                            Action: The Human Resources Recruitment
                            Activity Tracking System was modified to include
                            security processing/adjudication status
                            information. Reports from this system are shared
                            with the program offices to keep managers
                            informed of the status of their new hires.

                  Issue: NRC must continue to accomplish the agency's mission
                  during workspace related changes agencywide. In headquarters,
                  changes involve the use of multiple headquarters office buildings at
                  various sites in Montgomery County, Maryland.

                            Action: NRC is implementing a Headquarters Strategic
                            Housing Plan designed to meet space needs through
                            FY 2009. This plan addresses workspace needs, workflow,
                            and business processing structures. Beginning in 2013, the
                            agency expects to begin occupying a new permanent
                            building in an effort to reconsolidate headquarters staff.
                            Once the moves to the new permanent building are
                            complete, the agency will have headquarters staff
                            consolidated in three buildings within the White Flint
                            Complex. Furthermore, most NRC regional offices are
                            seeking new office space for additional staff in order to meet
                            increased workload demands.

                  Issue: NRC must continue to address anticipated increased
                  workload demands and retirements with recruitment and knowledge
                  management strategies.

                            Action: Since FY 2005 there have been 1,561 new
                            employees added to the workforce.6 In FY 2007, the
                            agency exceeded its hiring goal of a 200 net gain of
                            staff by bringing on board 417 new employees. During
                            FY 2008, NRC is projected to bring on board 495 new
                            employees with an estimated net gain of more than
                            200.

                            Action: NRC maintains a recruitment program that
                            includes participation in approximately 80 recruitment
                            events each year at colleges, universities, and
                            professional conferences. Other initiatives include
                            developing new recruitment displays and videos to
                            show at recruitment events, hiring additional human
                            resource staff to perform critical human resources work,
                            and upgrading the agency’s Web-based job application
                            tool.

6
    As of August 30, 2008, there were approximately 3,791 NRC staff.
                                                      22
          Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                          Action: NRC is implementing knowledge management
                          strategies7 that include mentoring, early replacement
                          hiring, and rehiring annuitants with or without use of a
                          pension offset as applicable.8 The agency also
                          developed a knowledge management Web site,
                          expressly for the purpose of retaining knowledge before
                          key employees are promoted or retire.


IV.     CONCLUSION

                The eight challenges contained in this report are distinct, yet
                interdependent relative to the accomplishment of NRC’s mission.
                For example, the challenge of managing human capital affects all
                other management and performance challenges.

                The agency’s continued progress in taking actions to address the
                challenges presented should facilitate successfully achieving the
                agency’s mission and goals.




7
  Knowledge management involves capturing critical information and making the right information
available to the right people at the right time to assure that knowledge and experience of the
current staff is passed on to the next generation of NRC staff.
8
  This flexibility allows NRC to rehire a retiree to fill a position at full pay if the agency has
experienced difficulty in filling a position, or if a temporary emergency exists.
                                                    23
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          24
    Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                                                                                            Appendix
SCOPE AND METHODOLOGY

          This evaluation focused on the IG’s annual assessment of the most
          serious management and performance challenges facing the NRC.
          The challenges represent critical areas or difficult tasks that warrant
          high level management attention. To accomplish this work, OIG
          focused on determining (1) current challenges, (2) the agency’s
          efforts to address the challenges during FY 2008, and
          (3) future agency efforts to address the challenges.

          OIG reviewed and analyzed pertinent laws and authoritative
          guidance, agency documents, and OIG reports, and sought input
          from NRC officials concerning agency accomplishments relative to
          the challenge areas and suggestions they had for updating the
          challenges. Specifically, because challenges affect mission critical
          areas or programs that have the potential to impact agency
          operations or strategic goals, NRC Commission members, offices
          that report to the Commission, the Executive Director for
          Operations, and the Chief Financial Officer were afforded the
          opportunity to share any information and insights on this subject.

          OIG conducted this evaluation from June through August 2008.
          The major contributors to this report were Anthony Lipuma, Deputy
          Assistant Inspector General for Audits; Steven Zane, Team Leader;
          Beth Serepca, Team Leader; Sherri Miotla, Team Leader; and
          Judy Gordon, Senior Analyst.




                                              25
